December 6, 2010

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT:          Management Advisory – Surface Mail Classes on Air
                  Transportation Networks (Report Number NL-MA-11-001)

This report presents the results of our self-initiated review of Surface Mail Classes on
Air Transportation Networks. The objectives were to determine whether opportunities
exist to limit surface mail classes on air transportation networks and to identify related
cost savings opportunities (Project Number 10XG041NL000). This report focuses on
transportation involving Federal Express (FedEx) Night-Turn,1 commercial air carrier
(CAIR), United Parcel Service (UPS), and Christmas air transportation networks. This
review addresses financial risk. See Appendix A for additional information about this
review.

Postal Service policy requires transportation managers to balance service and cost in
determining the best transportation mode to move mail. Typically, air transportation is
more expensive than surface transportation; and surface mail classes, including
Standard Mail®, Periodical, and Package Services, are not as time sensitive as Express
Mail®, Priority Mail®, or First-Class Mail® (FCM). Therefore, transportation managers
should generally assign the surface mail types to less costly highway or rail
transportation as long as the Postal Service can still meet on-time delivery standards.

Conclusion

The Postal Service used several air transportation networks2 instead of cheaper, space
available ground transportation to move Standard, Periodical, and Package Services
mail classes. This resulted in unnecessary spending of about $22.7 million over two
years, or about $12.1 million in fiscal year (FY) 2008 and $10.6 million in FY 2009. We
determined through prior audit work in the eight Postal Service areas3 that weak
controls existed when segregating mail allowing use of these air networks. Also, our
previous work showed Headquarters management was not always effectively
monitoring the types of mail transported on air networks. By ensuring the use of ground
transportation for moving surface mail classes, the Postal Service could save about $50
million over 10 years. See Appendix B for our detailed analysis of this topic.

1
  We previously reported on surface mail classes on FedEx Day-Turn operations in our FedEx Transportation
Agreement audits covering the eight Postal Service areas.
2
  The FedEx Night-Turn, CAIR, UPS, and Christmas air transportation networks.
3
  Our prior work was related to FedEx Day-Turn operations, but the systemic issues we identified related to mail
processing and impacted all air networks.
Surface Mail Classes on Air                                                                        NL-MA-11-001
 Transportation Networks


Management Action

As a result of this review and our prior related audits of the FedEx Day-Turn network,
management has taken steps that can be expanded to other air networks. These
corrective actions include:

     Sharing of Transportation Cost System/Cost and Revenue Analysis
       (TRACS/CRA)4 data with appropriate headquarters officials in an effort to monitor
       and track the volume and costs of transporting Standard, Periodicals, and
       Package Services mail classes transported on the FedEx Day-Turn Network.

        Holding a formal presentation to all plant managers concerning the causes and
         cost impacts of transporting surface mail classes on the FedEx Day-Turn
         Network.

       Instructing areas to begin monitoring each of their plant’s sort programs to
        determine those not properly segregating mail classes for certain distribution
        operations, and set up alerts to identify non-compliance.

We recommend the vice president, Network Operations:

1. Verify that actions already taken related to minimizing surface mail classes on the
   FedEx Day-Turn network are applied to other air networks to ensure transportation
   managers use surface transportation, instead of the Federal Express Night-Turn,
   commercial air carrier, United Parcel Service, and Christmas air transportation
   networks to move surface mail types where possible.

2. Routinely provide headquarters and area management with data, including
   Transportation Cost System/Cost and Revenue Analysis data, to monitor and track
   the volume and avoid additional costs for flying surface mail classes on the Federal
   Express Night-Turn, commercial air carrier, United Parcel Service, and Christmas air
   transportation networks.

3. Reinforce existing policies and procedures for the processing and assigning of mail
   to air and surface transportation.




4
 TRACS is an origin-based, continuous, ongoing statistical sampling system designed to estimate certain elements
used to associate volumes of each class of mail to the cost of the mode of transportation upon which it is dispatched.

                                                          2
                                               Restricted Information
Surface Mail Classes on Air                                                 NL-MA-11-001
 Transportation Networks



Management’s Comments

Management generally agreed with our findings and recommendations. Overall,
management stated in their response that actions already implemented as noted in the
Management Action section of this report should begin to show positive results by the
end of Quarter 1, FY 2011. These actions apply to all recommendations.

For recommendations 2 and 3, additional corrective actions were stated that enhance
the measures management put in place during the course of this review. Network
Operations developed mail history tracking reports, which they share daily with the field
to pinpoint where Standard and Periodical mail classes are being improperly sorted with
FCM. Scheduled teleconferences addressing policy non-compliance with the field have
been implemented along with a new Lean Six Sigma project to identify root causes and
solutions to reduce surface mail flown nationally. The Lean Six Sigma project began
October 2010 and will continue through February 2011. Process improvements will be
developed and implemented by September 2011.

Management stated their corrective actions should produce positive results that will
reduce or eliminate their exposure to any funds needlessly expended. In addition,
management agreed with the reported monetary impacts. See Appendix E for
management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and management’s corrective actions
should resolve the issues identified in the report. For clarification on recommendation 1,
management did not fully fix the problem when it implemented a system in 2006 as
referred to in management’s comments. While we acknowledge the system helps
prevent surface mail from flying on the air networks, it could be, and was, overridden.
Thus, recommendation 1 addresses the root cause of the issue. We will continue
working with management to identify and monitor timelines for reporting results in the
process of closing the significant recommendations.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                               3
                                    Restricted Information
Surface Mail Classes on Air                                                NL-MA-11-001
 Transportation Networks



We appreciate the cooperation and courtesies provided by your staff. If you have
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

cc: Patrick R. Donahoe
    Steven J. Forte
    Cindy F. Mallonee
    Frank Neri
    Corporate Audit and Response Management




                                                 4
                                      Restricted Information
Surface Mail Classes on Air                                                                           NL-MA-11-001
 Transportation Networks



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Generally transportation of Postal Service mail by air is more expensive than using
surface transportation, and Postal Service policy requires transportation managers to
balance service and cost in determining the best transportation mode. The
transportation modes for specific mail types are prescribed in national dispatch
instructions. Typically, surface transportation is used to transport Standard, Periodicals,
and Package Services mail classes, and air transportation is reserved for mail classes
with more stringent service standards, including FCM, Priority Mail, and Express Mail.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether opportunities exist to limit surface mail
classes on air transportation networks and to identify related cost savings opportunities.
This review focused on surface mail flown on the FedEx Night-Turn, UPS, CAIR, and
Christmas air transportation networks for FYs 2008 and 2009. We conducted prior
audits addressing this issue, but the recommendations made in those audits applied to
operations specifically associated with the FedEx Day-Turn Network (see Prior Audit
Coverage section) rather than to other air networks. We are making similar
recommendations in this report that can be applied to other air transportation networks.

To determine whether opportunities existed to limit surface mail classes on these air
transportation networks, we interviewed officials from Postal Service Network
Operations at headquarters.5 We evaluated the types of mail being transported on air
networks; considered on-time service standards; analyzed systemic causes for the
improper movement of mail; and analyzed alternate solutions for making the best use of
surface and air networks. We relied on our prior work related to the FedEx Day-Turn
operations in identifying causes, since the systemic causes for surface mail being
transported on that network also apply to the air networks covered in this review.
Therefore, we determined that additional facility site visits were not necessary for this
review.

To identify any related cost savings, we examined and analyzed relevant documents
including:

        TRACS/CRA data

        Postal Service policies that govern network routing and on-time standards


5
 During our previous work on FedEx Day-Turn operations, we interviewed officials from area offices, and Postal
Service contract officials, including officials from FedEx, UPS, and several THS providers. We also visited facilities
and operations including airport mail centers, THS operations, and mail processing facilities. Additionally, we
observed and photographed certain operations.

                                                           5
                                                Restricted Information
Surface Mail Classes on Air                                                                     NL-MA-11-001
 Transportation Networks


We examined computer-generated data to analyze mail volume, and costs. We did not
review or comprehensively validate the data; however, the large amounts of data and its
untimely accessibility significantly constrained our work.

To address these data limitations, we applied alternate procedures. We discussed the
data with Postal Service officials, managers, supervisors, employees and contractors.
We conducted source document examinations and discussed our initial findings and
recommendations with senior Postal Service officials and considered their perspective.
We also considered the results of observations and physical inspections, as well as
area management responses, in our prior audit work in assessing systemic, nationwide
operational issues related to surface mail classes transported by air networks.

             Air container of Postal Service
            mail being loaded on UPS aircraft
                     in San Juan, PR
                   September 13, 2008




We conducted this performance review from July 2010 through December 2010 in
accordance with the Quality Standards for Inspections.6 We discussed our observations
and conclusions with management officials on August 31, 2010 and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We issued five reports, listed in the chart that follows, each of which identified surface
mail being improperly flown on the FedEx Day-Turn network in all Postal Service areas.
The audits identified systemic causes for the movement of surface mail on the FedEx
Day-Turn network. Management generally agreed with our findings and
recommendations.




6
  These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978
as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.

                                                        6
                                             Restricted Information
Surface Mail Classes on Air                                                                         NL-MA-11-001
 Transportation Networks


                                                                                                       Related
                                                                Report           Final Report          Monetary
                      Report Title
                                                                Number               Date                    7
                                                                                                       Impact
  Air Networks – Federal Express Transportation
                                                            NL-AR-08-002           2/19/2008           $39.0 million
  Agreement – Pacific Area
  Air Networks – Federal Express Transportation
                                                            NL-AR-08-008           9/29/2008         $103.4 million
  Agreement – Western Area
  Air Networks – Federal Express Transportation
                                                            NL-AR-09-002           3/3/2009            $42.9 million
  Agreement – Southwest Area
  Air Networks – Federal Express Transportation
                                                            NL-AR-09-007           7/31/2009           $39.5 million
  Agreement – Southeast Area
  Air Networks – Federal Express Transportation
  Agreement – Capital Metro, Eastern, Great                 NL-AR-10-005           5/25/2010         $170.4 million
  Lakes, and Northeast Areas




7
  Related monetary impact amounts for this finding within these reports include over $75.6 million in unnecessary
questioned costs and an estimated $319.5 million in funds put to better use over ten years if corrective actions are
taken concerning the surface mail classes flown on the FedEx Day-Turn network.

                                                          7
                                               Restricted Information
Surface Mail Classes on Air                                                                        NL-MA-11-001
 Transportation Networks



                                 APPENDIX B: DETAILED ANALYSIS

Transporting Surface Mail Classes on Air Networks other than FedEx Day-Turn

We concluded the Postal Service used air transportation instead of cheaper, space
available ground transportation to move large volumes of Standard, Periodicals, and
Package Services mail classes.8 The air networks used to fly this mail included the
FedEx Night-Turn, CAIR, UPS, and Christmas air transportation. By doing so, the
Postal Service spent about $22.7 million more than necessary over two years, or about
$12.1 million in FY 2008 and $10.6 million in 2009, as shown in Table 1.

                  Table 1. Excess Costs of Transporting Surface Mail Classes
      on FedEx Night-Turn, UPS, CAIR, and Christmas air networks during FYs 2008 and 2009

                     Fiscal                       Standard           Package
                                Periodicals                                          Total Cost
                      Year                          Mail             Services

                      2008       $5,117,968        $5,948,148         $1,057,868     $12,123,984

                      2009       $3,799,349        $5,714,682         $1,083,476     $10,597,507

                     Totals      $8,917,317       $11,662,831         $2,141,344     $22,721,491

                        Note: We extracted information from Postal Service TRACS/CRA data.
                          All numbers are rounded. For more details, see Appendix D.


This occurred because Postal Service employees at the origin processing plants did not
properly segregate surface mail classes from FCM and Priority Mail during distribution
and processing operations.




                   376 pieces of Standard Mail in a
                   FCM letter tray dispatched from
                       West Palm Beach, FL to
                    Chicago, IL via commercial air
                           transportation




We also determined that headquarters was not effectively monitoring the types of mail
transported on these air networks and that Postal Service officials at headquarters and
the area level did not routinely assess the magnitude of surface mail classes
transported by air. Furthermore, Postal Service officials were unfamiliar with
TRACS/CRA data that relates transportation costs to specific mail classes and were not

8
  Through prior audit work in the eight Postal Service Areas, we determined that systemic issues existed that resulted
in surface mail types being flown on the FedEx Day-Turn network as well as all air networks. Specifically, Postal
Service employees at the origin processing plants did not properly segregate surface mail classes from FCM and
Priority Mail during distribution operations.

                                                          8
                                               Restricted Information
Surface Mail Classes on Air                                                      NL-MA-11-001
 Transportation Networks


using the data to assess operations. The TRACS/CRA data is primarily used for
ratemaking decisions and not for monitoring the types of mail transported by air. We
concluded that if TRACS data was provided to management and staff on a routine
basis, the information could be used to monitor and track volumes of mail by type to
avoid the additional cost of flying surface mail on air networks.




                                                    FCM Flat Tub to Sacramento, CA
                                                   (SMF) with 7 Periodicals, 8 Presort
                                                     Standard, I non-profit, 1 Bound
                                                    Printed Matter, and 1 Media Mail
                                                      from AFSM 100 North Metro
                                                  Processing & Distribution Center for
                                                           transport on UPS




Moreover, we found either steady or increasing surface mail volume on the air
transportation networks. We recognize that overall mail volume has decreased since FY
2006; however, the volumes of surface mail classes transported on air networks have
not significantly declined. In fact, the surface mail class percentage of the total volume
transported by air increased in FYs 2007 and 2009 from FY 2006 levels as shown in
the following chart.




By using ground transportation for these surface mail classes rather than air
transportation, we estimate the Postal Service could save about $50 million over 10
years.

                                              9
                                   Restricted Information
Surface Mail Classes on Air                                                                       NL-MA-11-001
 Transportation Networks



                                APPENDIX C: MONETARY IMPACTS

                       Finding                       Impact Category                  Amount
               Surface Mail Classes on              Unrecoverable
                                                                                    $22,721,491
               Air Networks                         Questioned Costs9
               Surface Mail Classes on              Funds Put to Better
                                                                                  $50,031,86511
               Air Networks                         Use10

                                            Total                                   $72,753,356




9
  Unrecoverable Questioned Costs are costs that are unnecessary, unreasonable, or an alleged violation of law or
regulation – in this case, unnecessary.
10
   Funds that could be used more efficiently by implementing recommended actions.
11
   The $50 million in projected Funds Put to Better Use, shown above, was calculated using a formula for future years
that takes into consideration the rapid volume decline of all mail in the U.S. Postal Service from FY 2006 through FY
2009.

                                                        10
                                              Restricted Information
Surface Mail Classes on Air                                                                     NL-MA-11-001
 Transportation Networks


        APPENDIX D: DETAILS OF UNRECOVERABLE QUESTIONED COSTS
                 (UNNECESSARY COSTS) BY AIR NETWORK

                       Transporting Surface Mail Classes on Air Networks
                                      Expanded Table 1.
    Excess Costs of Transporting Surface Mail Classes on FedEx Night-Turn, UPS, CAIR, and
                       Christmas Air Networks during FYs 2008 and 2009

              Fiscal                                          Standard      Package
                              Network         Periodicals                                 Total Cost
               Year                                             Mail        Services

                         Christmas              $131,922       $138,177        $94,201      $364,300
                         UPS                   1,254,724      1,457,977        275,331     2,988,033
              2008       CAIR                  3,449,072      3,702,354        686,978     7,838,404
                         FedEx Night-Turn        282,250        649,640          1,357       933,247
                         Totals               $5,117,968     $5,948,148     $1,057,868   $12,123,984

                         Christmas               $85,141        $62,591       $126,727      $274,459
                         UPS                   1,204,791      1,879,000        331,733     3,415,524
              2009       CAIR                  2,290,100      3,334,760        597,528     6,222,388
                         FedEx Night-Turn        219,316        438,331         27,488       685,136
                         Totals               $3,799,349     $5,714,682     $1,083,476   $10,597,507

              Totals                          $8,917,317    $11,662,831    $2,141,344    $22,721,491

    Note: We extracted information from Postal Service cost and revenue analysis data. All numbers are
    rounded.

                                        Trend of Costs by Air Network




                                                       11
                                             Restricted Information
Surface Mail Classes on Air                                                           NL-MA-11-001
 Transportation Networks



                 Trend of Total Costs of all Air Networks, including FedEx Day-Turn




                                                  12
                                        Restricted Information
Surface Mail Classes on Air                                 NL-MA-11-001
 Transportation Networks



                        APPENDIX E: MANAGEMENT’S COMMENTS




                                            13
                                  Restricted Information
Surface Mail Classes on Air                            NL-MA-11-001
 Transportation Networks




                                        14
                              Restricted Information
Surface Mail Classes on Air                            NL-MA-11-001
 Transportation Networks




                                        15
                              Restricted Information
